                          UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




                 Report of Inspection

The Broadcasting Board of
       Governors’
   Operations in India


Report Number ISP-IB-05-66, August 2005




                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED
                            TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
PROGRAM MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     VOA News Bureau Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Regional Technical Monitoring Office Management. . . . . . . . . . . . . . . . . . . 5
PROGRAM PERFORMANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     VOA News Bureau Performance. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     Regional Technical Monitoring Office Performance . . . . . . . . . . . . . . . . . . 7
HUMAN RESOURCES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    VOA News Bureau Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
    Regional Technical Monitoring Office Human Resources . . . . . . . . . . . . . . 9
MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
    VOA News Bureau Management Controls. . . . . . . . . . . . . . . . . . . . . . . . . 11
    Bureau Physical Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
    Regional Technical Monitoring Office Management Controls . . . . . . . . . 13
R ECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                                       UNCLASSIFIED




                             KEY JUDGMENTS

•   The New Delhi News Bureau serves as the Voice of America’s (VOA) South
    Asia office and covering India, Sri Lanka, Nepal, Bangladesh, the Maldives,
    and Bhutan. The bureau carries out its responsibilities well.
•   The VOA South Asia office does not have a full video editing setup. This
    prevents the transmission of broadcast quality video via the Internet to VOA
    Washington and otherwise impedes the creative energy of its correspondent
    in the area of video journalism.
•   The International Broadcasting Bureau’s (IBB) Regional Technical Monitoring
    Office (TMO) is a lean and cost-effective operation that plays an active role
    in ensuring that U.S. government non-military radio broadcasting is well heard
    in the South Asia target area. OIG confirmed that this office provides
    excellent monitoring services.
•   The two employees at the TMO do not have an American supervisor at post
    to authenticate the designation of responsibilities between the employees and
    to certify job reports after completion of the evaluations and IBB has not
    provided reference job descriptions to facilitate the evaluation process. As a
    result, Embassy New Delhi has not yet evaluated the two TMO positions in
    conjunction with the mission-wide evaluation of local employee position
    descriptions.
    The purpose of this inspection was to assess the general operations at the VOA
News Bureau and the IBB Regional Technical Monitoring Office, both located in
New Delhi, India, including their program management, program performance, and
management controls. The inspection took place in Washington, D.C., from Janu-
ary 7 to 28, 2005, and in New Delhi, India, from February 16 to 18, 2005. It was
conducted in accordance with quality standards for inspections prescribed by the
President’s Council on Integrity and Efficiency by Senior Inspectors William
Cavness, Andrea Leopold, and James Davies.

   A previous Office of Inspector General (OIG) report that discussed BBG
Operations in India was Inspection of Embassy New Delhi, India and its Constituent Posts
(OIG Report No. ISP/I-99-23, August 1999).




OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   1 .

                                       UNCLASSIFIED
                                          UNCLASSIFIED




2 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                          UNCLASSIFIED
                                       UNCLASSIFIED




                                        CONTEXT

    India is the world’s largest democracy and the largest English speaking country
boasting a population in excess of one billion people. English is one of sixteen
official languages in India. U.S. relations with India have not always been close due
in part to Indian suspicions of warm U.S. relations with Pakistan, with whom India
has fought three wars, and the history of India’s entry into the club of nuclear
powers. There is also a recurring refrain in Indian politics and media of the
“foreign hand” interfering in the nation’s affairs against that country’s national
interests. In a positive context, many Indians admire the United States and are
proud of their sons and daughters that have immigrated to the United States and
done well. Indeed, India has exported a stream of human capital to the United
States in the fields of information technology, engineering, and medicine. Also, in
recent years the U.S. - India bilateral relationship has grown decidedly warmer and
stronger with cooperation extending to areas (military and intelligence) where there
had been no relationship and with a number of high-level visits taking place.

   In this context, BBG has established, in the capital city of New Delhi, a VOA
News Bureau and an IBB Regional TMO. These offices have separate functions
and do not interact. The VOA News Bureau is under the supervision of the VOA
News Bureau in Hong Kong. The New Delhi TMO, supervised by IBB from
Washington, D.C., is one of six such offices worldwide. The others are located in
Vienna, Helsinki, Hong Kong, Manama, and Accra.




OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   3 .

                                       UNCLASSIFIED
                                          UNCLASSIFIED




4 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                          UNCLASSIFIED
                                       UNCLASSIFIED




                   PROGRAM MANAGEMENT



VOA NEWS BUREAU MANAGEMENT
     Prior to departure for India, OIG had a brief meeting with the VOA Central
Programming Directorate - the office that supports the news bureau - to discuss any
issues warranting OIG attention. OIG heard that there were “no problems” in the
New Delhi operation. In the course of the inspection, OIG concluded that this
was indeed the case in regard to the operation of the bureau as it carries out its
responsibilities. The New Delhi News Bureau serves as VOA’s South Asia office
and covers India, Sri Lanka, Nepal, Bangladesh, the Maldives, and Bhutan. (The
VOA News Bureau in Islamabad handles Pakistan and Bangladesh.) The bureau
chief is a newly hired correspondent in her first tour with VOA. She has substan-
tial freelance and stringer experience in the region, including previous experience
with VOA.




REGIONAL TECHNICAL MONITORING OFFICE MANAGEMENT
     The two locally employed staff (LES) in New Delhi work as a highly effective
team carrying out their own monitoring responsibilities and directing the monitoring
of four contract monitors elsewhere in India (Calcutta, Karkala, Chennai, and
Mumbai), a contract monitor in Sri Lanka, and an unmanned remote monitoring
station in Nepal. The TMO regularly receives monitoring assignments from IBB
for the New Delhi office and contract monitors and ensures that all monitoring
assignments are met. The contract monitors submit their reports to TMO weekly.
TMO confirms receipt, forwards the reports to IBB Washington, and arranges for
the contractors to receive payment from IBB for their services. This arrangement is
working smoothly. The TMO, IBB Washington, and the contract monitors commu-
nicate by e-mail and are in constant touch with each other. The TMO receives
complete instructions from its Washington supervisory office on all monitoring
requirements and conveys those instructions to the contract monitors and the
remote monitoring site. Supervision and communication appear good at all levels.


OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   5 .

                                       UNCLASSIFIED
                                          UNCLASSIFIED




6 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                          UNCLASSIFIED
                                       UNCLASSIFIED




                  PROGRAM PERFORMANCE



VOA NEWS BUREAU PERFORMANCE
    The news bureau is up-to-date on the technology front for radio and transmits
broadcast-quality audio programs to VOA via the Internet. In light of growing
interest in video programming targeted at Indian audiences, the correspondent may
find that she will have new requirements in that area. The correspondent has the
necessary skills to produce and transmit video programs. She currently produces an
average of one video program per month and told OIG that she can do more. The
office, however, does not have a full video editing setup, so the correspondent now
uses her personal computer and own software to produce her video program. The
bureau is unable to transmit the video electronically, and uses a courier service to
send tape to VOA Washington. The need for courier service results in a three to
four day delay in getting the product to Washington and so diminishes its news
value. The correspondent told OIG that she is attempting to identify video com-
pression software that will enable her to transmit broadcast quality video via the
Internet to VOA Washington. In the meantime, this situation impedes the creative
energy of the correspondent in the area of video journalism.

     In discussing possible expanded video efforts, the correspondent said she would
benefit from VOA television staff reactions to the technical quality and content of
her productions. She added that the creation of a foreign desk for VOA television
would assist her in identifying topics for coverage. The correspondent now makes
all decisions on such things as subject matter and production timing.



REGIONAL TECHNICAL MONITORING OFFICE PERFORMANCE
    IBB’s regional TMO is a lean and cost-effective operation that plays an active
role in ensuring that U.S. government non-military radio broadcasting is well heard
in the South Asia target area. Washington survey discussions with the supervisor
for the New Delhi TMO confirmed that this office provides excellent monitoring
services. Weekly, it collects, analyzes, and distributes summary reports on tens of


OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   7 .

                                       UNCLASSIFIED
                                          UNCLASSIFIED



         thousands of live monitoring observations and transmits several gigabytes of audio
         recordings and frequency usage data to IBB’s spectrum management specialists in
         Washington.

             In the course of monitoring operations, the TMO and the contract monitors
         immediately report via e-mail on reception problems, enabling transmitters to make
         adjustments to improve broadcast quality. TMO coverage includes IBB transmis-
         sions from VOA English and regional languages, Radio Free Asia, Radio Free
         Europe/Radio Liberty, Radio Sawa of the Middle East Television Network, and
         Radio Farda, which is the VOA and Radio Free Europe/Radio Liberty joint ven-
         ture targeted to the Iranian audience. For comparison purposes, the TMO also
         checks broadcasts from the British Broadcasting Corporation, Radio Deutsche
         Welle, and Radio Netherlands.




8 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                          UNCLASSIFIED
                                       UNCLASSIFIED




                         HUMAN RESOURCES



VOA NEWS BUREAU HUMAN RESOURCES
    The VOA correspondent serving as the bureau chief directs a small Foreign
Service national (FSN) staff that includes an FSN-8 information/administrative
assistant and a contract driver (FSN-3 equivalent). Since the correspondent job
requires constant travel, the bureau uses a stringer to cover India news in English
while the correspondent is away. The correspondent receives reporting assignments
from the VOA News Bureau in Hong Kong, financial management assistance from
the VOA Financial Liaison Office in Bangkok, and technical assistance from the
VOA News Bureau in London as well as from the VOA Hong Kong News Bureau,
and VOA Washington.

   VOA employs a network of stringers in India and elsewhere in South Asia for
news coverage in languages other than English. The stringers receive their assign-
ments and compensation directly from VOA. The correspondent bureau in New
Delhi does not get involved in managing the stringers.



REGIONAL TECHNICAL MONITORING OFFICE HUMAN
RESOURCES
     The two employees of the TMO encumber FSN positions, with the supervisor
graded at the FSN-9 level and his assistant at FSN-8. TMO subscribes to a set of
support functions from the embassy under the International Cooperative Adminis-
trative Support Services framework, including human resources support. For the
most part, these services meet the needs of TMO. However, the embassy human
resources office has not yet evaluated the two TMO LES positions in conjunction
with the mission-wide evaluation of local employee position descriptions. Accord-
ing to the human resources office, the embassy recognizes the requirement to
evaluate the positions, but notes that the two employees do not have an American
supervisor at post to authenticate the designation of responsibilities between the
employees and to certify the job reports after completion of the evaluations. IBB
Washington has not provided reference job descriptions to facilitate the evaluation
process.
OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   9 .

                                       UNCLASSIFIED
                                           UNCLASSIFIED




              Recommendation 1: The International Broadcasting Bureau, in coordination
              with Embassy New Delhi, should immediately take action to complete the
              mandatory position classification of the FSN-9/7 regional technical monitor
              position number V-006 and the FSN 8/9 technical monitor assistant position
              number V-005 at the Technical Monitoring Office in New Delhi. (Action:
              IBB, in coordination with Embassy New Delhi.)


              After the inspection, BBG advised OIG that IBB and Embassy New Delhi had
          completed the mandatory position classifications and that the two technical moni-
          toring positions remained at the same level.




10 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                           UNCLASSIFIED
                                       UNCLASSIFIED




                 MANAGEMENT CONTROLS



VOA NEWS BUREAU MANAGEMENT CONTROLS
    An LES member is responsible for administrative matters and managing the
VOA’s South Asia bureau office - often without supervision - when the VOA
correspondent is traveling to cover the news. The bureau chief told OIG that the
management support provided by her information assistant and support from
Washington and regional VOA offices to the bureau are, for the most part, suffi-
cient to enable her to concentrate most of her time and energy on her news cover-
age responsibilities. Formally classified as an “information assistant,” this em-
ployee encumbers a mixed position with substantial administrative duties. He is
responsible for preparing purchase orders, overseeing procurement, managing petty
cash, supervising the chauffeur, contacting the media, managing the sound studio
and the local area network, negotiating for wire services, and many other functions.
He has had relevant training in cashiering and other administrative functions.
Inventories are up to date, properly certified, and coordinated by VOA’s Central
News.

    The Voice of America pays the International Cooperative Administrative
Support Services through Embassy New Delhi only for human resources and
payroll support for its two LES. The embassy human resources office evaluated
both positions in the course of the mission-wide examination of all local employee
position descriptions, although the bureau has not yet received the results of the
evaluation. OIG questioned the use of a personal services contract to employ the
VOA driver when the lessons learned subsequent to the 1998 catastrophic embassy
bombings demonstrated that local staff should not be employed on contracts.
According to the embassy’s human resources staff, the driver’s position was not
converted to a personal services agreement because the Voice of America did not
ask for the change. According to the human resources office, the driver does get all
relevant benefits. Nevertheless, OIG believes this situation should be remedied
immediately. In addition, OIG suggests that VOA determine if its local staff in
other countries have been converted from contracts to proper employment agree-
ments. According to the IBB Manual of Operations and Administration, Part IX,



OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   11 .

                                       UNCLASSIFIED
                                           UNCLASSIFIED



          Section 148.4, the agency has specific authority to enter into personal services
          contracts pursuant to 22 United States Code, Section 1471. However, IBB advised
          OIG that it intends to follow the Department’s lead and move from personal
          service contracts to personal service agreements.


              Recommendation 2: The Voice of America should, in coordination with
              Embassy New Delhi, determine if its locally employed staff are properly
              employed and receive all benefits to which they are entitled, and where this is
              not the case, take immediate steps to ensure employment status is in line with
              governing regulations. (Action: VOA, in coordination with Embassy New
              Delhi)


              Subsequent to the inspection, BBG stated that it had received results of the
          CAJE. The direct hire was promoted from an FSN-8 to an FSN-10 and the grade
          of the driver remained the same. BBG added that VOA had been given the im-
          pression that all PSCs would be converted when the CAJE process was complete.
          This turned out not to be the case.

              The bureau chief effectively supervises her staff and maintains control of
          bureau resources. OIG found that there was sufficient separation of duties in this
          small office. The information assistant manages the petty cash account, and the
          bureau chief reconciles the account quarterly. The bureau chief verifies time and
          attendance for the two LES. The bureau chief ’s timekeeper tracks her time and
          attendance from the Hong Kong VOA News Bureau. On purchase orders, the
          bureau chief signs as ordering officer and the information assistant as receiving
          officer. VOA’s Bangkok Financial Liaison Office processes purchase orders and
          vouchers and writes checks to pay bureau expenses. The bureau chief has a pro-
          curement warrant for $100,000. VOA Washington must approve all local pur-
          chases (other than recurring expenses) over $500. The BBG Senior Procurement
          Executive approves the leases for the office and the bureau chief ’s residence.



          BUREAU PHYSICAL SECURITY
              The bureau is located in a gated apartment complex in a modern area of New
          Delhi approximately 15 minutes by car from the U.S. Embassy. Gate guards control
          access to the apartment compound. The bureau chief completed the State
          Department’s “Security Overseas” course prior to her assignment to New Delhi.



12 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                           UNCLASSIFIED
                                       UNCLASSIFIED



While OIG had no reason to disagree with the bureau chief ’s assessment that the
office has a low profile and carries out its work in a low-threat environment, OIG
suggested that the bureau chief should request a “courtesy inspection” by the
embassy’s regional security office (RSO). OIG noted that the bureau had outdated
fire extinguishers, an expired first aid kit, and no current emergency action plan. At
the time of the drafting of this report, the bureau and the embassy RSO were in
contact regarding the scheduling of a “courtesy inspection.” As recommended by
OIG, the VOA News Bureau purchased and installed new fire extinguishers and a
new first aid kit.

Information technology

    The New Delhi VOA News Bureau operates a small local area network (LAN)
of eight workstations. A local contractor installed the LAN in early FY 2005 with
approval from VOA Washington. The same local contractor provides broadband
Internet access, firewall protection, antivirus support, and on-call assistance as
required. According to the New Delhi bureau chief and the bureau’s information
assistant, there have been no significant problems since the LAN installation. The
New Delhi bureau’s LAN has no direct connectivity to the BBG, IBB, or to the
VOA network. Also, the bureau’s use of laptop computers for filing programs and
reports with either the Hong Kong or London news centers and VOA headquarters
are done through a dial-up connection. OIG notes that the New Delhi bureau is
awaiting policy direction from headquarters as the BBG’s Chief Information
Officer establishes the agency’s information technology management and security
programs.



REGIONAL TECHNICAL MONITORING OFFICE MANAGEMENT
CONTROLS
    The TMO occupies two small offices on the fifth floor of the American Center.
The office will move onto the embassy compound when the American Center
closes several years from now. Security at the office is excellent. IBB has supplied
the TMO with the equipment necessary to carry out its functions at all locations in
India and in the region. The equipment is bar-coded. TMO annually confirms the
accuracy of the property inventory to its Washington headquarters, but there is no
other inventory verification. A local computer dealer maintains the office com-




OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   13 .

                                       UNCLASSIFIED
                                           UNCLASSIFIED



          puter equipment. The TMO does not have a petty cash imprest fund and neither
          employee has procurement authority. The TMO uses the Embassy New Delhi
          cashier to handle its cash requirements, which are minimal. The last visit by a
          Washington supervisor was several years ago.




14 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                           UNCLASSIFIED
                                       UNCLASSIFIED




                         RECOMMENDATIONS



FORMAL RECOMMENDATIONS
Regional Technical Monitoring Office

Recommendation 1: The International Broadcasting Bureau, in coordination with
  Embassy New Delhi, should immediately take action to complete the manda-
  tory position classification of the FSN-9/7 regional technical monitor position
  number V-006 and the FSN 8/9 technical monitor assistant position number V-
  005 at the Technical Monitoring Office in New Delhi. (Action: IBB, in coordi-
  nation with Embassy New Delhi.)

VOA News Bureau

Recommendation 2: The Voice of America should, in coordination with Em-
  bassy New Delhi, determine if its locally employed staff are properly employed
  and receive all benefits to which they are entitled, and where this is not the case,
  take immediate steps to ensure employment status is in line with governing
  regulations. (Action: VOA, in coordination with Embassy New Delhi)




INFORMAL RECOMMENDATIONS
Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Infor-
mal recommendations will not be subject to the OIG compliance process. How-
ever, any subsequent OIG inspection or on-site compliance review will assess the
mission’s progress in implementing the informal recommendations.




OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   15 .

                                       UNCLASSIFIED
                                           UNCLASSIFIED



          VOA News Bureau

          The bureau chief produces a monthly video news program on her own personal
          computer and uses her personal software.

          Informal Recommendation 1: The Voice of America should provide the corre-
          spondent bureau in New Delhi with broadcast quality video production and editing
          hardware and software. (Action: VOA)

          After the inspection, BBG told OIG that VOA News had supplied the New Delhi
          correspondent with a video editing laptop and software. In addition, it provided a
          new computer that will work for both radio and television.

          Regional Technical Monitoring Office

          There is no independent verification of the property inventory at the technical
          monitoring office. The technical monitoring office does not subscribe to inventory
          service under ICASS.

          Informal Recommendation 2: The International Broadcasting Bureau should
          arrange for an embassy employee, a temporary duty International Broadcasting
          Bureau employee, or a Voice of America employee to verify the property inventory
          at the technical monitoring office. (Action: IBB)

          After the inspection, IBB directed TMO to ask Embassy New Delhi’s General
          Services Office for assistance in performing an independent verification of the
          New Delhi TMO inventory, stating that an independent verification of the inven-
          tory located outside New Delhi was impractical.




16 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                           UNCLASSIFIED
                                       UNCLASSIFIED




                       PRINCIPAL OFFICIALS

                                                         Name                            Arrival Date


VOA South Asia Bureau Chief                              Mary Patricia Nunan             Oct. 18, 2003


Technical Monitoring Office                              Anurag Parashar                Sept. 14, 1997
                                                         Senior Monitor




OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   17 .

                                       UNCLASSIFIED
                                           UNCLASSIFIED




18 .   OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005


                                           UNCLASSIFIED
                                       UNCLASSIFIED




                               ABBREVIATIONS


                               BBG              Broadcasting Board of Governors


                               FSN              Foreign Service national


                               IBB              International Broadcasting Bureau


                               ICASS            International Cooperative Administrative
                                                Support Services


                               LAN              Local Area Network


                               LES              Locally Employed Staff


                               OIG              Office of Inspector General


                               RSO              Regional Security Officer


                               TMO              Technical Monitoring Office


                               VOA              Voice of America




OIG Report No. ISP-IB-05-66, Inspection of the Broadcasting Board of Governors’ Operations in India, August 2005   19 .

                                       UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
